MACKINAC i CENTER

LEGAL FOUNDATION

September 21, 2021

The Honorable Scott Harris

Clerk of the United States Supreme Court
One First Street, N.E.

Washington, DC 20543

Re: = Taylor v. Buchanan, et al.
No, 21-357

Dear Clerk Harris:

As counsel of record for Petitioners in the above-captioned matter, pursuant to
Supreme Court Rule 37.2(a), I consent to the timely filing of any amicus curiae briefs in
this case, without the need for individual consent and regardless of whether it supports
Petitioner or Respondents.

Sincerely,

Ce G.

Derk A. Wilcox
Counsel of Record for Petitioner
Mackinac Center Legal Foundation
140 West Main Street

Midland, MI 48640
wilcox(@mackinac.org

 

CC: John J. Bursch, Esq.
Andrea J. Bernard, Esq.
Charles R. Quigg. Esq.

MACKINAC CENTER LEGAL FOUNDATION — A PUBLIC INTEREST LAW FIRNA

‘8640 989-631-0900 Fax 989-631-0964 Www.mackKinac.org

140 West Main Street Midland Michigan 48
